Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

8.50% to
Visa Platinum with No Rewards Benefits: 10.75%
to15.65%
17.90%, based on your credit
worthiness; the APR will vary with the market based on the Prime Rate.

12.00% to
to 15.65%
17.90%, based on your credit worthiness; the
Visa Rewards Benefits: 14.25%
APR will vary with the market based on the Prime Rate.

to 17.90%
Visa Secured Benefits: 14.25%
16.50% Fixed
Rate .
Annual Percentage Rate
(APR) for Balance Transfers

8.50% to
Visa Platinum with No Rewards Benefits: 10.75%
to15.65%
17.90%, based on your credit
worthiness; the APR will vary with the market based on the Prime Rate.

12.00% toto15.65%
Visa Rewards Benefits: 14.525%
17.90%, based on your credit worthiness; the
APR will vary with the market based on the Prime Rate.
16.50% Fixed
Rate .
to 17.90%
Visa Secured Benefits: 14.525%
Annual Percentage Rate
(APR) for Cash Advances

10.50% to
to 15.65%
17.90%, based on your credit
Visa Platinum with No Rewards Benefits: 12.00%
worthiness; the APR will vary with the market based on the Prime Rate.
14.00% to
to15.65%
17.90%, based on your credit worthiness; the
Visa Rewards Benefits: 16.25%
APR will vary with the market based on the Prime Rate.

16.50% Fixed
Rate .
Visa Secured Benefits: 16.25%
to 17.90%
Penalty Pricing and
When it Applies

None

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not charge
you any interest on purchases and balance transfers if you pay your entire balance by the
due date each month. We will begin charging interest on cash advances on the
transaction date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $0.00

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card, visit the
website of the Consumer Financial Protection Bureau at

https://www.consumerfinance.gov/learnmore

Fees
Annual Fee

None

Transaction Fees
• Balance Transfer
• Cash Advance
• Foreign Transaction

None
$10.00 or 2.00% of the amount of each cash advance, whichever is greater.
1.00% of each foreign transaction in U.S. dollars.

Penalty Fees
• Over-the-Credit Limit
• Late Payment
• Returned Payment

None
$10.00
$15.00

How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases)”
April 1, 2021
The information about the costs of the cards described above are current as of
. This information may have changed
since that time. For the most current information, please visit valleystrong.com, call us at (661) 833-7900 / (800) 221-3311, stop by
any of our convenient branch locations, or write to us at Valley Strong Credit Union, Attn: Visa Department, P.O. Box 9506, Bakersfield, CA
93389-9506.

